<

CERTIFICATE OF COMPLIANCE
No.
— PETITIONER

Sarada Mohapatra

VS.
Director. US Patent and Trademark Office — RESPONDENT

As required by Supreme Court Rule 33.1(h), I certify that the
petition for a writ of certiorari contains 1,130 words, excluding
the parts of the petition that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and
correct.
Executed on August 31. 2021.

RECEIVED
SEP - 7 2021

